T        estimony

                     STATEMENT OF
                   DONALD MANCUSO
              ACTING INSPECTOR GENERAL,
                DEPARTMENT OF DEFENSE
                      BEFORE THE
          COMMITTEE ON GOVERNMENTAL AFFAIRS
                 UNITED STATES SENATE
                          ON
            EXPORT LICENSING PROCESSES FOR
          DUAL-USE COMMODITIES AND MUNITIONS



Report Number 99-212       DELIVERED: June 23, 1999



             Office of the Inspector General
                 Department of Defense
                              Hold for Release
                              Until Delivery
                              Expected 10:00 a.m.
                              June 23, 1999




              Statement by

             Donald Mancuso

        Acting Inspector General

         Department of Defense

               Before the

Senate Committee on Governmental Affairs

                   on

     Export Licensing Processes for

   Dual-Use Commodities and Munitions
                                                                1


Mr. Chairman and Members of the Committee:



I appreciate the opportunity to be here today to discuss the

Federal Government’s export licensing process for dual-use

commodities and munitions.   In response to Chairman Thompson’s

letter of August 26, 1998, an extensive review has been

conducted by Inspector General (IG) teams from the Departments

of Commerce, Defense, Energy, State, Treasury and the Central

Intelligence Agency.   The efforts of the review teams were

coordinated by a working group, which avoided duplication and

enabled us to track individual export license application cases

across agency lines and to address interagency issues.    The

results of our review are contained in the interagency report

signed by the participating IGs on June 18, and six individual

agency reports, signed by the respective IGs between May 28 and

June 18.



Because my office assembled and published the interagency

report, I will begin my testimony by summarizing its main

points.    I again emphasize, however, that the report represents

a joint effort.
                                                                 2


Background



Dual-use commodities are goods and technologies with both

military and commercial applications.   The dual-use export

licensing process is governed by the Export Administration Act

of 1979, as amended.   Although the Act expired in 1994, its

provisions are continued by Executive Order 12981,

“Administration of Export Controls,” under the authority of the

International Emergency Economic Powers Act.   Munitions exports

are controlled under the provisions of the Arms Export Control

Act.



The dual-use export licensing process is managed and enforced by

the Department of Commerce while the munitions export licensing

process is managed by the Department of State.   The advisory

roles of other agencies are similar in both of these license

application processes.   The Departments of Defense and Energy

review the applications and make recommendations to Commerce and

State.   The Central Intelligence Agency and the U.S. Customs

Service (Department of Treasury) provide relevant information to

Commerce and State to assist them in the license review.

Customs also enforces licensing requirements for all U.S. export

shipments except outbound mail, which is handled by the U.S.

Postal Service.
                                                                 3




In FY 1998, the Department of Commerce received 10,696 dual-use

export license applications and the Department of State received

44,212 munitions export license applications.



The overall objective of the interagency review was to evaluate

the export licensing processes for dual-use commodities and

munitions to determine whether current practices and procedures

were consistent with established national security and foreign

policy objectives.   To accomplish this objective, we reviewed

various random samples of license application review cases to

determine if prescribed processing procedures were followed

within each agency and in multi-agency groups.



Interagency Review Results



To a considerable extent, our June 18, 1999, interagency report

is an update of a similar report that was issued jointly by the

IGs of Commerce, Defense, Energy and State in 1993.   The

previous report, titled, "The Federal Government’s Export

Licensing Processes for Munitions and Dual-Use Commodities,"

covered the pertinent issues under seven headings.    The current

report is structured along similar lines.
                                                                 4


The first area relates to the adequacy of export control

statutes and Executive Orders.   The IG teams concluded that, in

general, the provisions of the Export Administration Act, as

clarified by Executive Order 12981, are consistent and

unambiguous.   However, the Commerce and Defense IG teams

stressed that the dual-use licensing process would be best

served if the Export Administration Act were reenacted rather

than to continue to operate under a patchwork of other laws and

executive orders.   Overall, the Arms Export Control Act is also

consistent and unambiguous.   Likewise, Executive Order 12981 is

generally consistent with the Export Administration Act.

However, the Executive Order needs modification to reflect the

merger of the Arms Control and Disarmament Agency with the

Department of State and to clarify representation at the

Advisory Committee on Export Policy.   In addition, policy and

regulations regarding the export licensing requirements for

items and information “deemed to be exports” needs

clarification, and the exporter appeals process should be

formalized.



The second area pertains to procedures used in the export

license review processes.   The Commerce, Defense, Energy and

State IG teams concluded that processes for the referral of

dual-use license applications and interagency dispute resolution
                                                                  5


were adequate.   Officials from those Departments likewise were

generally satisfied with the 30-day time limit for agency

reviews under Executive Order 12981; however, not every agency

could meet that limit.    Several Defense Components and the

Central Intelligence Agency indicated they would benefit from

additional time to review dual-use export license applications.

The Defense and State IG teams were satisfied with the referral

of munitions license cases for review; however, the Commerce IG

team believed that inclusion of the Department of Commerce in

the munitions case referral process should be considered.      The

Commerce commodity classification process could benefit from

additional input on munitions-related items from the Departments

of Defense and State.    Also, Energy officials believed a more

formal review process for munitions was needed, as the officials

were unclear on their role in the current process.



The third area pertains to the cumulative effect of multiple

exports to individual foreign countries.    The U.S. Government

lacked an overall mechanism for conducting cumulative effect

analysis.   However, some of the agencies involved in the export

licensing process performed limited cumulative effect analyses,

with the degree of analyses performed varying across the

agencies.   The Commerce, Defense, Energy and State IG teams
                                                                 6


concluded that additional cumulative effect analysis would

benefit the license application review process.



The fourth area relates to information management.   The

Commerce, Defense and State IG teams questioned the adequacy of

the automated information systems that their Departments use to

support license application reviews.   Specifically, there were

shortfalls in data quality, system interfaces, and modernization

efforts.   The audit trails provided by most of the respective

export licensing automated data bases were adequate, but Defense

procedures did not ensure that final Defense positions were

accurately recorded.   The Central Intelligence Agency IG team

reported unsatisfactory documentation of end-user checks on

munitions license applications.



The fifth set of issues concerns guidance, training and undue

pressure on case analysts.   The review indicated that Defense,

Energy and State licensing officials had adequate guidance to

perform their mission; however, Department of Commerce licensing

officers and Central Intelligence Agency licensing analysts

could benefit from additional guidance.   On-the-job training was

the primary training available at the Departments of Commerce,

Defense, Energy, and State for licensing officers.   The

Commerce, Defense and State IG teams identified a need for a
                                                                7


standardized training program in their agencies.   With very few

exceptions, Commerce and Defense licensing officials reported

they were not pressured to change recommendations on license

applications.   No Energy or State export licensing officials

indicated they were pressured regarding their recommendations.



The sixth area regards monitoring compliance and end-use checks.

The Department of Commerce did not adequately monitor reports

from exporters on shipments made against licenses, and the

Department of State’s end-use checking program could be

improved.   The Departments of Commerce and State still use

foreign nationals to conduct an unknown number of end-use

checks; however, the Commerce IG team found that most end-use

checks were being conducted by U.S. and Foreign Commercial

Service officers or Commerce enforcement agents and the State IG

team concluded it may be appropriate to use foreign nationals to

do the checks under certain conditions.



The seventh area pertains to export controls enforcement.     The

Treasury IG team determined that, although Customs Service

export enforcement efforts have produced results, the Customs

Service is hindered by current statutory and regulatory

reporting provisions for exporters and carriers.   The Treasury
                                                                8


IG team also identified classified operational weaknesses in

Custom’s export enforcement efforts.



Recommendations and Other Reports



The IG teams made specific recommendations relevant to their own

agencies.   Those recommendations and management comments are

included in the separate reports issued by each office, which

are in Appendix C (Commerce), Appendix D (Defense), Appendix E

(Energy), Appendix F (State), Appendix G (Treasury), and

Appendix H (Central Intelligence Agency) of the interagency

report.   Appendixes D, E, and F are in Volume II.   Appendixes G

and H, which are classified, are in Volume III.   Because of time

constraints and the fact that there are no additional

recommendations in the interagency report, management was not

asked to respond separately to it.



Department of Defense Export Licensing Issues



Now I would like to change focus from the interagency report to

the report issued by my office on Defense participation in the

export control processes.   Again, I would like to emphasize that

our objective was to review the export licensing process and not

to assess the appropriateness of individual license
                                                                 9


applications.    To summarize the results of the Defense IG team’s

review, I will address each of the 14 issues that Chairman

Thompson posed in his August 1998 letter.



Issue 1.   Examine whether the current, relevant legislative

authority contains inconsistencies or ambiguities regarding the

licensing of dual-use and munitions commodities, and the effect

of any such inconsistencies and ambiguities.



     Conclusion:    The general nature of the Export

Administration Act and the Arms Export Control Act creates a

broad framework, but we found no inconsistencies or ambiguities

in either law.     The Acts give Federal departments and agencies

flexibility to change details regarding the components of the

dual-use commodities and munitions export licensing processes,

without requiring frequent changes to legislation.     We also

concluded that the dual-use licensing process would be best

served through reenactment of the Export Administration Act.



Issue 2:   Examine whether Executive Order 12981 (1995) as

implemented is consistent with the objectives of the Export

Administration Act and other relevant legislative authority.
                                                                10


     Conclusion:   Executive Order 12981, as implemented, is

generally consistent with the relevant objectives of the Export

Administration Act, the principal legislative authority that we

considered under this question.   However, Executive Order 12981

decreased from 40 to 30 days the time that the Department has to

review dual-use license applications.   As a result of the

shortened review period, the ability to locate the information

necessary to inject into the license review process may have

been diminished.   However, it is difficult to measure the effect

the decreased review time has had on the Department’s review of

dual-use license applications.



Issue 3:   Determine whether there is a continued lack of

interagency accord, as stated in the 1993 interagency report,

regarding whether the Department of Commerce is properly

referring export license applications (including supporting

documentation) out for review by the other agencies.



     Conclusion:   Defense officials expressed general

satisfaction with the dual-use export license applications that

Commerce referred for review, although Defense officials

disagreed with Commerce’s decision not to refer 5 of 60 sampled

dual-use license applications.    They also expressed concern that

Commerce referred too few commodity classification requests to
                                                                 11


Defense for review.   As a result, in some cases, Commerce made

decisions on license applications with national security

implications without the benefit of Defense input.



Issue 4:   Determine whether the interagency dispute resolution

(or “escalation”) process for appealing disputed license

applications allows officials from dissenting agencies a

meaningful opportunity to seek review of such applications, and

assess why this process is so seldom used.



     Conclusion:   With one possible exception, the interagency

escalation process provided Defense a meaningful opportunity to

appeal disputed dual-use license applications, although the

outcome of the process often favored the Commerce position.    The

number of applications appealed to the Advisory Committee on

Export Policy decreased as a result of Executive Order 12981,

and Defense elected not to escalate disputed dual-use

applications for a variety of reasons.   Defense officials stated

the, in general, decisions about escalating cases were made on

the basis of the substance of the case, the viewpoints expressed

by Department principals and the likelihood of prevailing at the

Advisory Committee on Export Policy.   Disputes over munitions

applications were resolved between office chiefs at Defense and

State.
                                                                12




Issue 5:   Review whether the current dual-use licensing process

adequately takes into account the cumulative effect of

technology transfers resulting from the export of dual-use

items, and the decontrol of munitions commodities.



     Conclusion:   The licensing process at the Technology

Security Directorate, Defense Threat Reduction Agency,

occasionally takes into account the cumulative effect of

technology transfers, but participants in the licensing process

did not routinely analyze the cumulative effect of proposed

exports or receive assessments to use during license reviews.

In addition, Defense organizations did not conduct required

annual assessments of the impact of technology transfers that

could provide information on the cumulative effect of proposed

exports.   As a result, the Department cannot ensure that the

licensing process takes into account the cumulative effect of

technology transfers.   As of March 1999, the Technology Security

Directorate, Defense Threat Reduction Agency, had initiated

actions designed to increase the degree to which cumulative

effect analysis was incorporated into the licensing process, but

the matter is still under review.   We recognize that organizing

and resourcing a meaningful cumulative effect analysis process
                                                                 13


pose a significant challenge, but this is clearly an area that

needs more emphasis.



Issue 6:   Review whether the current munitions licensing process

adequately takes into account the cumulative effect of

technology transfers resulting from the export of dual-use

items, and the decontrol of munitions commodities.



     Conclusion:   The observations made on Issue 5 also apply to

the munitions licensing process.



Issue 7:   Determine whether license applications are being

properly referred for comment (with sufficient time for

responsible review) to the military services, the intelligence

community, and other relevant groups (the "recipient groups") by

Defense and other agencies.   Consider in particular numerical

trends in the frequency of such referrals, trends in the type of

applications referred, trends in the nature of the taskings made

in connection with the referrals, and the perceptions of

officials at the recipient groups.



     Conclusion:   The Defense Components, except the Defense

Intelligence Agency, have received about the same number of case

referrals annually over the past 8 years.   However, the
                                                                14


Technology Security Directorate, Defense Threat Reduction

Agency, did not always appropriately refer license applications

to other Components for review.   Of the applications we

reviewed, various Components considered that 12 percent of the

dual-use and 24 percent of the munitions license applications

were not properly referred.   If the Technology Security

Directorate, Defense Threat Reduction Agency, does not properly

refer a case to other knowledgeable Component for review, the

Department’s position may be developed with incomplete

information.



Issue 8:   Determine whether license review officials at each of

the agencies are provided sufficient training and guidance

relevant for reviewing license applications, and whether more

formal training and guidance is warranted.



     Conclusion:   The Technology Security Directorate, Defense

Threat Reduction Agency, and other Defense organizations

involved in the review processes received appropriate guidance

from a range of sources, and nearly all licensing officers

stated the guidance was adequate for performing their duties.

Licensing officers also stated that they generally had

sufficient training; however, some licensing officials believed

that a classroom training program and training plan for
                                                                  15


personnel reviewing export license applications should be

established.    We were unable to determine if the lack of a

classroom training program or a training plan has materially

affected licensing duties, but we concluded that putting more

emphasis on training would be prudent.



Issue 9:    Review the adequacy of the databases used in the

licensing process, such as the Defense Foreign Disclosure and

Technical Information System [FORDTIS] paying particular

attention to whether such databases contain complete, accurate,

consistent, and secure information about dual-use and munitions

export applications.



     Conclusion:    FORDTIS provides a useful communication and

coordination mechanism for the Department on export control

matters, although limitations existed in the system that reduced

the support provided to decisionmakers.    In addition, as will be

discussed in our response to Issue 13, inadequacies existed in

the use of FORDTIS to provide an audit trail for export

licensing decisions.



Issue 10:    In congressional testimony, a Defense licensing

officer described instances where licensing recommendations he

entered on FORDTIS were later changed without his consent or
                                                                 16


knowledge.    Examine those charges, and assess whether such

problems exist at your agencies.



     Conclusion:   Instances occurred in which recommended

positions entered in FORDTIS by a licensing officer were changed

without the consent or knowledge of that officer, although the

number of such occurrences could not be determined.    These

changes appear to have been based on supervisors' disagreements

with the licensing officers conclusions.    Such changes are

permissible under Department policy.    In addition, documentation

related to the changes was not always complete.



Issue 11:    Determine whether license review officials are being

pressured improperly by their superiors to issue or change

specific recommendations on license applications.



     Conclusion:   We interviewed all Defense Threat Reduction

Agency licensing officers and, with one exception, they

indicated to us that they had not been subjected to any improper

pressure to change specific recommendations on license

applications.    Other staff at the Technology Security

Directorate, Defense Threat Reduction Agency, who did not

formulate proposed recommendations on license applications, but

who were at times involved with reviewing or processing license
                                                                  17


applications, also did not report any improper pressure directed

at them to change positions on specific license applications.

However, several of the Technology Security Directorate staff

members stated that management applied indirect pressure to

encourage certain viewpoints.    We are aware that at least one

licensing officer has alleged retaliation by management for

disclosing problems in the licensing review process.



Issue 12:   Determine whether our Government still uses foreign

nationals to conduct pre-license or post-shipment licensing

activities and whether such a practice is advisable.



     Conclusion:   In general, Commerce and State conduct pre-

license and post-shipment licensing activities.    Defense

provides limited support to Commerce and State pre-license and

post-shipment licensing activities through Defense Attaché’

Offices.    Defense also supports State by monitoring certain

foreign space launch activities under the provisions of

munitions licenses.    Defense has not used and does not plan to

use foreign nationals to support Commerce or State pre-license

and post-shipment licensing checks or to monitor space launches.



Issue 13:   Determine whether the agency licensing process leaves

a reliable audit trail for assessing licensing performance.
                                                                  18




     Conclusion:    FORDTIS provided a long-term audit trail for

positions on license reviews, but it did not always contain

complete and accurate records of Defense and U.S. Government

positions.    The audit trail provided by FORDTIS for the sample

reviewed generally agreed with the Commerce electronic records.

However, in one instance the Commerce records showed a change to

the conditional license approval from Defense that was not shown

in FORDTIS.    In another instance, a conditional approval

recommended by Defense for a license application was not

included in the Commerce record.    In addition, the audit trail

provided by FORDTIS did not include new information presented at

interagency decision meetings, detailed results of those

meetings, records of all applications referred to the National

Security Agency, as well as key correspondence or technical

data.   As a result, the audit trail provided by FORDTIS cannot

be used as a reliable means of assessing the degree to which

overall Defense positions were in agreement with positions taken

by the U.S. Government.



Issue 14:    Describe the procedures used by agencies to ensure

compliance with conditions placed on export licenses (for

example, no retransfers without U.S. consent, no replications,
                                                                 19


and peaceful use assurances) and assess the adequacy and

effectiveness of such procedures.



     Conclusion:   The Department has a limited formal role in

ensuring compliance with conditions placed on export licenses.

In its support to State, the Technology Security Directorate,

Defense Threat Reduction Agency, had adequate procedures for

monitoring foreign space launch activities.   Its informal

process for reporting potential violations of license conditions

and technology assessment control plans was also adequate.

However, expected increases in the number of launch monitoring

missions coupled with a programmed increase in staff to support

these missions dictates the Department move to a more formal

approach to reporting violations.   If not, the informality of

the current reporting process could fail to ensure that State

receives the highest quality of reporting from Defense.



Recommendations



We made a number of recommendations to the Department to improve

the effectiveness and efficiency of export licensing review

efforts, as follows:
                                                              20


•   The Under Secretary of Defense for Policy should revise

    Defense Directive 2040.2 to clearly state responsibilities

    and procedures regarding the performance of assessments

    designed to analyze the cumulative effect of technology

    transfers and the monitoring of compliance with any

    requirements established and to obtain FORDTIS access for

    country desk officers reviewing export license

    applications.



•   The Director, Defense Threat Reduction Agency, should

    develop an agency-wide training policy, training plan, and

    a classroom training program for Defense Threat Reduction

    Agency licensing officers; provide other Defense Components

    the classroom training program for licensing officers; and,

    in coordination with the Department of State, develop and

    implement a memorandum of understanding on reporting

    requirements for the Space Launch Safeguards and Monitoring

    Program.



•   The Director, Technology Security Directorate, Defense

    Threat Reduction Agency, should work with the Assistant

    Secretary of Commerce for Export Administration to develop

    additional guidance and procedures on how to implement 1996

    National Security Council guidance on commodity
                                                               21


    jurisdiction and commodity classification; develop an

    action plan with milestones for the integrated process team

    on the Militarily Critical Technologies Program that

    includes defining a process for identifying, prioritizing,

    and obtaining decisions on assessments related to the

    cumulative effect of technology transfers; reiterate his

    request that the Defense Components identify the types of

    licenses they would like to review; notify the Assistant

    Secretary of Defense (Strategy and Threat Reduction) of any

    Defense Component that does not identify the cases it wants

    to review; maintain a list of the types of export license

    applications that Defense Components have requested to

    review; establish procedures to ensure adequate

    documentation of changes to the position of a licensing

    officer; and establish procedures to ensure that FORDTIS

    records include the correct Defense position, additional

    information presented at the Operating Committee, an

    explanation of why Defense did not escalate disputed cases,

    the results of encryption cases referred to the National

    Security Agency, and key correspondence and technical data.



•   The Deputy Under Secretary of Defense (Policy Support)

    should provide guidance to Defense Components on how to

    query FORDTIS in order to generate dual-use and munitions
                                                                 22


     reports; monitor modernization efforts of Commerce’s export

     control information systems; and ensure that initiatives on

     electronic imaging in support of the export review process

     are successfully implemented within Defense.



Management Response



The Principal Deputy Under Secretary of Defense for Policy

provided comments on our draft report that were generally

responsive to the findings and recommendations.   We made

relatively minor adjustments in the final report, based on those

comments, and have requested the Department to provide

additional comments to clarify what corrective actions are going

to be taken on a few specific items.   We will track the progress

of all agreed-upon actions through our audit followup

procedures.



Conclusion



In conclusion, Mr. Chairman, we hope that this extensive multi-

agency review will be useful to both the involved agencies and

the Congress as efforts to update and improve U.S. export

licensing practices continue.   I would be remiss if I did not

make a point of noting, in closing, that we received excellent
                                                              23


cooperation from agency personnel at all levels during this

review.



This concludes my statement.
